         Security Controls Over the FDIC’s Wireless Data Communications
                                                          March 2006
                                                        Report No. 06-012


                                            SUMMARY OF AUDIT REPORT




                                            Results of Audit


                                            The FDIC established and implemented security controls for its wireless data
                                            communications that were generally consistent with the National Institute of
                                            Standards and Technology’s recommended practices. Such controls include
                                            policies to govern the deployment of wireless-enabled devices connected to the
                                            FDIC’s corporate network, security software to authenticate wireless users to the
                                            corporate network and protect the confidentiality of their communications, and
Background and                              procedures to assess wireless security activities. However, additional controls are
                                            needed to provide reasonable assurance of adequate security
Purpose of Audit
                                            Recommendations and Management Response

                                            KPMG recommended that the FDIC’s Chief Information Officer (CIO):
The Federal Deposit Insurance
Corporation (FDIC) Office of
                                                z   enhance the Corporation’s wireless security policies and awareness
Inspector General (OIG) contracted
                                                    training; and
with KPMG LLP (KPMG) to audit and
report on the security of the FDIC’s
wireless data communications. The               z   restrict access to critical software programs designed to safeguard wireless
results of this audit support the FDIC              data communications.
OIG in fulfilling its evaluation and
reporting responsibilities under the        The CIO provided written comments that were responsive to the report’s
Federal Information Security                recommendations. Because this report addresses issues associated with
Management Act (FISMA) of 2002.             information security, we do not intend to make public release of the specific
                                            contents of the report.
Wireless technology offers federal
agencies a number of important
benefits, such as increased
employee productivity and ease of
network installation. However, this
technology also presents a number
of potentially significant security risks
to the confidentiality, availability, and
integrity of sensitive information.
Such risks include the interception of
communications not intended for
public disclosure, denial of service
attacks, and unauthorized
deployment of wireless-enabled
devices.

The audit objective was to determine
whether the FDIC has established
and implemented security controls
that provide reasonable assurance
that its wireless data communications
are adequately protected.
